                    CLOSEOUT MEMORANDUM FOR M99070036
  On 6 July 1999, the complainant,' a graduate student at institution 1, brou ht allegations
                                                                             5
  of misconduct to our attention. The complainant alleged that subject 1, his graduate
  faculty advisor at institution 1, and institution 1 had dismissed him unfairly. The
 complainant said that he filed a grievance with institution 1 about the dismissal, but it
 failed to follow appropriate protocols when it evaluated the grievance. The complainant
 also alleged that subjects 1 and z3 were misusing NSF h d s they received from subject
 2's institution (institution 2)4 to work on a project that benefited a small private
 company.5 Institution 2 was the lead for a consortium that was responsible for awarding
 the NSF funds it received to PISto do specific research projects.

  With respect to the alleged unfair treatment of the complainant, subject 1 provided copies
  of two letters: the complainant's letter to the Graduate School, which contained his
 allegations against subject 1 and institution 1, and the Graduate School representative's
 letter. to the complainant in response to the allegations. The representative's response
 described the various steps that institution 1 took in its review of the complainant's
 alleged unfair treatment. The steps included multiple individual meetings with the
 various parties involved and a review of available relevant documentation. The
 representative concluded that subject 1's "Department's decision not to renew or
 continue [the complainant's] graduate assistantship was fair and appropriate."

 With respect to the alleged misuse of NSF h d s , subject 1 told us that he had received
 funding, a gift from the private company to institution 1, to do a study about which he
 and his colleagues, including subject 2, were interested. These h d s were the source of
the complainant's financial support. Subject 1 said that the results of the study might
benefit the private company as well as other companies. The Graduate School
representative's response included a discussion of the review of subject 1's alleged
misuse of government funds, concluding that subject 1 had done nothing inappropriate
with government funds. Additional documents provided by subject 1 showed that the gift
was received by institution 1, not subject 1, and that the company waived any proprietary
rights for results from the M y . We eould f&d no evidence that any NSF funds were
used to support the complainant or either subject's study.    -
We concluded that there was no substance to either allegation.
This inquiry is closed and no W e r action will be taken.
cc: Integrity, IG




                                      Page 1 or 1                                M 99-36
